CERTIFICATE OF SERVICE
I, HEREBY CERTIFY, that the Petition for Rehearing is presented in good faith and not for
delay as stated in Rule 44.6. A copy of the petition for rehearing has been served upon
appellee’s acting Solicitor General Counsel of record, Jeffrey B. Wall this

15

day of

December 2020 by United States Postal Services by first-class mail.

Marguerite Smith, pro-^e, self-represented
10522 Maidstone Cove Drive
Jacksonville, FL 32218
(904) 609-5779

No, gg&ft

IN THE
SUPREME COURT OF THE UNITED STATES

MamnpTife Smhhh — PETITIONER
^ {Your Name)

Robert Witfa- Secretary df
\kfemv\S APPnies.eJ'aU — RESPONDENT(S)
PROOF OF SERVICE
r MajfaueJnffr SniiMl_______ _ do swear or declare that on this date*
Tte& %
j 20 2Q., as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI oneach party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly Addressed
to each <rf them mid with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names ami addresses of those served are as Mows:
CffiMyjj fr. \a1qUj 5aliWi4flr G&nem1 HSj Tbph

45D

iWl/Ulg/, A/, uLj

emclosed
:

-

s.....

cf ^Sashcj^cmMi

} TlCdOftQ-pObL

Check $km,m '

I declare under penalty of penury that the foregoing is true and correct.
Executed on

~]Wlg ^

-3tr

